No. 20-230

INTBE

,hprtmt Qtnurt nf tlJe Jlntttb &tatts
ROBERT JAMES KEACH, Estate Representative of
the Post-Effective Date Estate of Montreal, Maine,
and Atlantic Railway, Ltd.,

Petitioner,

V.

NEW BRUNSWICK SOUTHERN RAILWAY COMPANY
LIMITED and MAINE NORTHERN RAILWAy COMPANY,

Respondents.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT

CERTIFICATE OF SERVICE

I, Danielle Spinelli, a member of the bar of this Court, hereby certify that, on this
27th day of October, 2020, all parties required to be served have been served copies of
the Reply Brief for Petitioner in this matter by overnight courier to the addresses
below.
ALAN R. LEPENE
THOMPSON HINE LLP
127 Public Square, Suite 3900
Cleveland, OH 44114
(216) 566-5520
Alan.Lepene@thompsonhine.com

DANIELLE SPINELLI

WILMER CUTLER PICKERING

HALE AND DORR LLP
1875 Pennsylvania Ave., NW
Washington, D.C. 20006
(202) 663-6000
danielle.spinelli@wilmerhale.com

